                            SOCIAL SECURITY
                             Office of the Inspector General

                                     August 22, 2011



The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an April 14, 2011 letter, you requested that we review the Social Security
Administration’s progress in expanding electronic services to claimants’ representatives.
Specifically, you asked us to determine the status of the initiatives to (1) allow Internet
appeals; (2) provide claimant representatives Internet access to electronic folders;
(3) provide notices and other information to claimant representatives through the
Internet; and (4) reduce compact disc use for sharing claimant information.

This report highlights our findings pertaining to the issues raised in your letter. To
ensure the Agency is aware of the information provided to your office, we are forwarding
a copy of this report.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                          Sincerely,




                                          Patrick P. O’Carroll, Jr.
                                          Inspector General

Enclosure

cc:
Michael J. Astrue



              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

    Electronic Services for
   Claimant Representatives
         A-05-11-01124




         August 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                               Background
OBJECTIVE
The objective of our review was to determine the status of the Social Security
Administration's (SSA) efforts to provide electronic services to claimant representatives.
Specifically, our review focused on SSA's initiatives to (1) allow Internet appeals;
(2) provide claimant representatives Internet access to electronic folders; (3) provide
notices and other information to claimant representatives through the Internet; and
(4) reduce compact disc (CD) use for sharing claimant information.

BACKGROUND

In an April 14, 2011 letter to the Inspector General, the Chairman of the Subcommittee
on Social Security, Committee on Ways and Means, requested that we review SSA’s
progress in expanding electronic services to claimant representatives by determining
the status of the initiatives described in our objective.

SSA pays benefits to disabled beneficiaries under the Disability Insurance and
Supplemental Security Income programs.1 Claimants file applications with SSA field
offices (FO)2 and disability determination services (DDS) in each State or responsible
jurisdiction to determine whether the claimants are disabled under SSA’s eligibility
criteria.3 When a claim for disability benefits is denied at the DDS, claimants can
appeal and have a hearing before an administrative law judge (ALJ).4 Often, claimants
hire a third party to represent them during the hearing.

In May 2007, the Commissioner of Social Security testified on the Agency’s plans to
implement various initiatives to reduce the backlog of disability claims.5 One of these
initiatives was to expand Internet support for claimant representatives, which included
filing appeals over the Internet, sharing electronic disability folders (eFolder) 6 with
claimant representatives, issuing electronic hearing notices, and reducing CD use. At
the time, the Commissioner estimated that the changes brought by these initiatives
could save up to 45 minutes per case. These savings related to time spent
1
    The Social Security Act §§ 221 et seq. and 1611 et seq., 42 U.S.C. §§ 421 et seq. and 1382 et seq.
2
    20 Code of Federal Regulations (C.F.R.) §§ 404.603 and 416.305.
3
    20 C.F.R. §§ 404.1503 and 416.903.
4
    20 C.F.R. §§ 404.929 and 416.929.
5
 Funding Social Security’s Administrative Costs: Will the Budget Meet the Mission: Hearing Before S.
Committee on Finance, 110th Cong. 3-6, (May 23, 2007) (statement of Michael J. Astrue, Commissioner
of Social Security).
6
    This is the claimant’s file containing all relevant electronic documents associated with his/her appeal.


Electronic Services for Claimant Representatives (A-05-11-01124)                                               1
•   printing and mailing documents to claimant representatives;
•   creating, encrypting, and mailing CDs with claimant information to claimant
    representatives; and
•   responding to frequent calls from claimant representatives about their cases.

CLAIMANT REPRESENTATIVES

In Fiscal Year (FY) 2010, the Office of Disability Adjudication and Review (ODAR)
processed approximately 738,000 hearings. About 78 percent of these claimants were
represented by another party. 7 According to SSA,8 hearing offices and FOs spend a
significant amount of time communicating with, and responding to, requests from
claimant representatives.

ELECTRONIC INITIATIVES

SSA has established several automation initiatives it believes will improve service to
claimant representatives and support streamlining the hearing process (see Figure 1).

              Figure 1: Electronic Services for Claimant Representatives




7
 Claimant representatives are attorneys, non-attorneys, and third parties who conduct business on behalf
of those filing for disability benefits.
8
 Fact Sheet – Informational (Internal) Appointed Representative Services – Electronic Folder Access (as
of June 30, 2011).


Electronic Services for Claimant Representatives (A-05-11-01124)                                     2
•     Internet Appeals (iAppeals): Allows claimants and claimant representatives to use
      the Internet to complete and submit a request for a reconsideration or hearing and
      related disability information.9

•     Electronic Records Express (ERE): Allows medical sources, claimant
      representatives, and other parties to provide medical records to SSA in an electronic
      format.10

•     Appointed Representative Services (ARS): 11 Provides claimant representatives
      who have registered and been authenticated by SSA with Internet access to their
      clients’ eFolders to view, upload, and download information using an expanded
      version of ERE. See Appendix B for the contents of the eFolder available for view
      by claimant representatives.

•     CDs of the eFolder: Hearing offices and the Appeals Council produce CDs of the
      eFolder throughout the appeals process for claimants, claimant representatives,
      experts, ALJs, and other parties. CDs are a one-way process from ODAR to outside
      parties.

•     Electronic Notices: SSA places copies of hearing-related notices into the
      eFolder. 12 ARS provides claimant representatives the ability to view these electronic
      notices.




9
 The Internet appeal and disability report process request information, such as medical history, about the
adult or child appealing his/her disability decision. The iAppeals information is the same as requested on
Request for Reconsideration (Form SSA-561-U2), Request for Hearing by Administrative Law Judge
(SSA Form HA-501-U5), and Disability Report – Appeal (Form SSA-3441-BK).
10
  ERE information can be shared using a fax or the Internet. When appropriate, SSA provides users a
bar code for submissions to associate the incoming information with the appropriate claimant.
11
     ARS was initially called the Appointed Representative Suite of Services.
12
     The representative does not receive any type of alert that notices have been placed in the eFolder.


Electronic Services for Claimant Representatives (A-05-11-01124)                                           3
                                                         Results of Review
At the time of our review, SSA was implementing several electronic initiatives while
expanding others. These initiatives provided alternatives to claimant representatives
while helping streamline hearing-related workloads in field and hearing offices.

•    In the first 8 months of FY 2011, claimants filed approximately 52 percent of all
     requests for hearings using iAppeals. Claimant use of iAppeals has increased over
     the years, thereby removing workloads from SSA’s FOs.

•    As of the end of June 2011, SSA enrolled approximately 6,400 claimant
     representatives in ARS, corresponding to approximately 71 percent of the
     represented claimants who filed appeals.13 ARS will eventually reduce a claimant
     representative’s need for CDs and lessen hearing office and Appeals Council
     workloads related to producing the CDs.

•    SSA maintains electronic copies of hearing-related notices in eFolders, which are
     available to ARS participants. However, SSA does not notify representatives when it
     adds a notice. In addition, SSA prints notices centrally, and for at least one type of
     notice, generates them automatically, thereby reducing the time spent by hearing
     office staff on such tasks.

Even with electronic services, claimant representatives still need to be invited and then
register in person for eFolder access via ARS. In addition, ARS participants still receive
paper notices in the mail. Moreover, implementing ARS will not eliminate ODAR’s need
to produce encrypted CDs for claimant representatives who do not use ARS as well as
for other parties attending hearings. SSA plans to expand eFolder access to additional
hearing participants, such as experts, and include additional information in ARS, such
as digital recordings of the hearings and reports on the status of pending hearings.

INTERNET APPEALS

In the first 8 months of FY 2011, approximately 294,000 of ODAR’s 569,600 hearing
receipts (52 percent) were processed through iAppeals. Claimant use of iAppeals has
increased over the years (see Figure 2). In FY 2008, when iAppeals was implemented,
approximately 30 percent of appeals were filed electronically.




13
  As we noted earlier, about 78 percent of claimants were represented by another party in FY 2010. If
we assume the same rate of representation in FY 2011, and apply the 71 percent rate of represented
claimants whose eFolders are part of ARS, then approximately 55 percent of all claimants’ eFolders were
part of ARS (that is, 0.78 x 0.71 = 0.55).


Electronic Services for Claimant Representatives (A-05-11-01124)                                     4
                                            Figure 2: Trends in Hearing Requests Filed Using iAppeals
                                                            (FYs 2008 Through 2011)

                                      60%
       Percent of Hearing Requests




                                      50%

                                      40%

                                      30%

                                      20%

                                      10%

                                       0%
                                                FY 2008          FY 2009             FY 2010       FY 2011
                                                                           Fiscal Year


                                     Note: FY 2008 data are for December 2007 through September 2008. FY 2011 data are
                                     for October 2010 through May 2011.

Before SSA implemented iAppeals in December 2007, a claimant requested a hearing
by submitting the proper paperwork to a FO either in person or by mail.14 FO personnel
then processed and updated this paperwork, and sent the final package to the
appropriate hearing office. As part of its move to an electronic disability process, the
Agency designed iAppeals as a convenience for claimants as well as to minimize the
amount of FO handling of each incoming hearing request. When requests for hearing
are filed by paper, FO staff faxes this paperwork into SSA’s eFolder. 15

A third party recently conducted a customer satisfaction survey of iAppeals users.
Based on the feedback it received, the Agency plans to make improvements to the
online application process. 16

APPOINTED REPRESENTATIVE SERVICES

As of the end of June 2011, SSA had enrolled about 6,400 claimant representatives in
ARS. ODAR invited 10,569 claimant representatives to enroll in the program between


14
     iAppeals is also used for requests for reconsideration by a DDS.
15
   In some cases, incoming hearing requests with a large number of attachments may be sent to hearing
offices to be scanned by higher-capacity equipment, which increases the processing burden at hearing
offices.
16
 SSA received the iAppeals customer satisfaction survey results on May 11, 2011. The American
Customer Satisfaction Index, LLC, conducted the survey.


Electronic Services for Claimant Representatives (A-05-11-01124)                                                         5
November 2010 and the end of June 2011.17 According to ODAR, enrolled claimant
representatives served about 71 percent of the represented claimants with pending
hearings. Before ARS, the claimant representatives were provided copies of the
eFolder on CDs. Using ARS, claimant representatives can view and download the
eFolder’s contents as well as add information.18

ARS was piloted among nine claimant representatives from July 2008 through
October 2009 and implemented nationwide on November 1, 2009.19 However, because
of problems with online registration,20 SSA ended the online registration process in
February 2010 and modified ARS for in-person registration. While in-person registration
occurred throughout 2010, 21 nationwide implementation of this modified process did not
occur until November 2010. After training hearing office staff on registration
procedures, ODAR sent invitations to certain claimant representatives 22 asking them to
visit a hearing office and register for ARS. See Appendix D for the Appointed
Representative Service Registration Process.

ARS is limited to individual claimant representatives. Claimants, medical and vocational
experts, representative staffs, and ALJs do not have access to ARS at this time. ODAR
managers stated the Agency plans to expand access to the experts, while ALJs will be
provided access to the eFolder through other means when they are away from the
office. In addition, SSA has expanded ARS to include access to cases pending at the
Appeals Council level.




17
  ODAR did not formally track the reasons representatives declined enrollment. However, ODAR
management informed us that the main reason representatives declined ARS enrollment was that
members of their staff could not enroll. Instead, only the appointed representatives were allowed to
access the folder through the secured Website. Additionally, some representatives did not enroll because
they were uncomfortable using electronic processes.
18
  ARS relies on expanded ERE access to support its implementation. ERE was initially developed for
medical providers and others interacting with DDS systems to submit health and school records related to
disability claims.
19
  Claimant representatives must complete the Appointment of Representative (Form SSA-1696-U4),
before SSA grants them access to ARS. Claimant representatives can obtain the Form online or from an
SSA office.
20
  Claimant representatives requesting access to ARS are required to complete Registration for
Appointed Representative Services and Direct Payment (Form SSA-1699). Part of the online problems
relate to the dual nature of this form, which also requires claimant representatives to request direct fee
payment, though not all claimant representatives are seeking this service.
21
     ODAR continued to register invited claimant representatives for ARS at various conferences.
22
  ODAR initially sent invitations to claimant representatives who (1) had requested an invitation, (2) had
more than 50 hearing cases pending, (3) were recommended by hearing offices, or (4) had problems with
the CD encryption program.


Electronic Services for Claimant Representatives (A-05-11-01124)                                             6
In terms of ARS functionality, SSA plans to add a number of features.23 For instance,
ODAR is considering providing claimant representatives ARS access to the digital
recording of the hearing. Additionally, SSA plans to create a hearing office status report
in ARS that will provide claimant representatives information on all their pending cases.
This status report should be available in January 2012.24

CDs of the eFolder

Hearing offices produce CDs of the eFolder throughout the hearing process for
claimants, claimant representatives, experts, ALJs, and other parties. ARS should
reduce the need for CDs. However, ODAR continues to create a significant number of
CDs as part of the hearing process for claimant representatives who are not part of ARS
as well as for other parties. Hearing offices regularly create CDs at various points in the
hearing process, and authorized parties can request additional CDs of the eFolder at
any point in the process. Hearing office staff create multiple CDs for claimants, claimant
representatives who are not part of ARS, ALJs, and experts involved in the hearing
process.25 In addition, claimant representatives registered with ARS are still allowed to
request CDs.26

SSA estimated it takes hearing office staff an average of 15 minutes to create each
encrypted CD containing the eFolder information,27 label and package the CD, and mail
the CD and encryption directions to the requesting party. 28 For FY 2010, SSA
estimated that hearing offices created between 3 to 4 million CDs.




23
   ODAR management informed us that due to limited resources in the Office of Systems, they lack a
systems environment mirroring the production environment that would allow them to recreate or test
issues with claimant representatives’ electronic services in a fully automated, end-to-end manner.
24
  An SSA official indicated that the Commissioner is seeking authority to mandate the use of certain
electronic services for those claimant representatives seeking the direct payment of fees. SSA is working
with the Office of Management and Budget on this proposal, see Mandatory Use of Electronic Service
(0960-AH31).
25
   Experts are asked to return the CDs, unlike the claimant representatives. Returned CDs are shredded.
In addition, CDs provided to experts may contain information on more than one claimant, whereas each
CD provided to a claimant representative contains information on only one claimant.
26
  ODAR staff stated, to ensure all parties have the most updated information, encrypted CDs are still
created for claimant representatives on the day of the hearing even if they have access to ARS.
27
  ODAR piloted CD encryption in October 2010 and implemented it nationwide in January 2011. The CD
encryption software is incompatible with some computer operating systems. As a result, users with
software issues are a priority for ARS invitations.
28
   According to ODAR staff, to prepare the cost-benefit analysis, each hearing office tracked how long it
took to burn the CD. Responses ranged from 10 to 30 minutes, so ODAR used an average of
15 minutes. ODAR staff stated they do not have a time study documenting savings from the hearing
office process.


Electronic Services for Claimant Representatives (A-05-11-01124)                                        7
ELECTRONIC AND AUTOMATED NOTICES

Electronic copies of hearing-related notices are maintained in eFolders and available to
ARS participants. However, the Agency does not notify the claimant or claimant
representative that a notice has been added to the eFolder.29 At the time of this review,
SSA was still sending paper notices to all claimant representatives, even if they were
registered with ARS. ODAR notices are printed centrally, and for at least one type of
notice, automatically generated, thereby reducing the time spent by hearing office staff
on such tasks.
Central Print and Mail
SSA’s Central Print and Mail initiative was designed to reduce the time hearing office
staff spends creating, printing, packaging, and mailing notices. According to SSA, its
contractor processed approximately 3.9 million hearing-level notices in FY 2010. 30 The
Agency initiated a pilot of the central service on February 19, 2008. On
September 1, 2008, all hearing offices began using the service. ODAR staff stated the
majority of hearing notices are now part of this service, with only a few specialized
notices still sent by hearing offices. To use the service, hearing offices generate a notice
using an existing template, enter the necessary hearing-related information, and save
the final document. This information is then transmitted to the contractor for printing and
mailing, thereby conserving hearing office resources for other priorities. SSA recently
added ALJ decision notices to this process. As a result, SSA anticipates this central
service will generate an even greater number of notices in FY 2011 than were processed
in FY 2010.
Automated Noticing
The ODAR Automated Noticing initiative was designed to streamline the processing of
hearing notices by automatically generating a notice based on information in its Case
Processing and Management System (CPMS).31 Automated noticing software was
piloted on March 1, 2010, and implemented on May 2, 2010, as a subset of the Central
Print and Mail initiative. Since implementation of this initiative, only the Notice of Hearing
Reminder (SSA Form HA-L503)32 has been fully automated. According to SSA staff,
when resources are available, the Agency intends to automate two more forms mailed
most often, the Acknowledgment of Notice of Hearing and the Request for Hearing—
Acknowledgment Letter.

29
  ODAR obtains a business email address from claimant representatives as part of the ARS registration
process. An ODAR manager noted that these email addresses could be used in the future if SSA
decides to provide such notification.
30
   Of the 3.9 million notices, 2.9 million were Acknowledgement Notices of Hearing (Form HA-504),
Notices of Hearing Reminder (Form HA-L503), or Request for Hearing—Acknowledgement Letters
(Form HA-L2). We requested a count of all notices sent by ODAR in FY 2010, created both centrally and
at hearing offices. However, ODAR staff said they did not have this information.
31
     Once the automated notice is generated from the software, the vendor prepares the notice for mailing.
32
     The notice is automatically generated 14 days before the hearing.


Electronic Services for Claimant Representatives (A-05-11-01124)                                        8
                                                                   Conclusions
SSA has made progress in its efforts to provide electronic services to claimant
representatives. With the availability of iAppeals, claimants and claimant
representatives have the option to submit their requests for hearing and the
accompanying disability reports online. In addition, SSA offers claimant representatives
access to claimant’s eFolders through the Internet via ARS. Moreover, claimant
representatives with access to ARS can view copies of notices stored in the eFolder.
Finally, SSA has further lessened the processing burden on hearing office staff by
printing and mailing notices centrally, and using CPMS data to automatically generate
notices. Future efforts related to electronic services will need to focus on increasing use
of these services, allowing online registration, increasing the amount of hearing data
available to ARS participants, reducing CDs and paper notices for those with access to
the eFolder, and expanding eFolder access to additional parties.




Electronic Services for Claimant Representatives (A-05-11-01124)                        9
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Contents of the Electronic Disability Folder Available for View by
             Claimant Representatives

APPENDIX C – Scope and Methodology

APPENDIX D – Appointed Representative Service Registration Process




Electronic Services for Claimant Representatives (A-05-11-01124)
                                                                       Appendix A

Acronyms
    ACSI                American Customer Satisfaction Index

    ALJ                 Administrative Law Judge

    ARS                 Appointed Representative Services

    CD                  Compact Disc

    CFR                 Code of Federal Regulations

    CPMS                Case Processing and Management System

    DDS                 Disability Determination Services

    eFolder             Electronic Disability Folder

    ERE                 Electronic Records Express

    FO                  Field Office

    FY                  Fiscal Year

    iAppeals            Internet Appeals

    ODAR                Office of Disability Adjudication and Review

    SSA                 Social Security Administration

    U.S.C.              United States Code




Electronic Services for Claimant Representatives (A-05-11-01124)
                                                                            Appendix B

Contents of the Electronic Disability Folder
Available for View by Claimant Representatives
The electronic disability folder (eFolder) is the Social Security Administration’s (SSA)
electronic disability repository of data. Information housed in the eFolder comes from
various SSA and disability determination services’ case processing systems used to
decide disability claims. SSA also adds information from external sources, such as
medical providers, claimants, claimant representatives, and third parties. The eFolder
contains information keyed into data entry fields, images of documents scanned or
faxed into the eFolder, and electronic forms added as images.1 The eFolder allows
SSA to share disability case information without having to move a paper folder between
users.

ORGANIZATION OF THE ELECTRONIC FOLDER

The eFolder, like SSA’s paper modular disability folder, includes color-coded categories.
The categories available for view by claimant representatives via Electronic Records
Express access are as follows:

    •   Payment Documents/Decisions (Yellow)
    •   Jurisdictional Documents and Notices (Red)
    •   Non-Disability Related Development (Orange)
    •   Disability Related Development (Blue)
    •   Medical Records (Yellow)




1
 SSA Program Operations Manual System DI 80650.020—The Electronic Folder, Effective Date:
June 08, 2009.


Electronic Services for Claimant Representatives (A-05-11-01124)
                                                                      Appendix C

Scope and Methodology
To address our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures, including applicable
    sections of the Hearings, Appeals and Litigation Law manual.

•   Researched prior Office of the Inspector General and Government Accountability
    Office reports.

•   Consulted with the Office of Disability Adjudication and Review’s (ODAR) managers
    and staff in Headquarters and the Chicago Regional Office to obtain updated
    information on the current status of the ODAR automation initiatives addressed in
    this report, including (1) Internet Appeals (iAppeals); (2) Appointed Representative
    Services (ARS); (3) Electronic Records Express (ERE); (4) automated and electronic
    hearing notices to claimants and claimants’ representatives; and (5) reduction in
    compact disc use for the transfer of claimant information.

•   Interviewed staff in SSA’s Office of the Deputy Commissioner for Operations, Office
    of Electronic Services, associated with the implementation and maintenance of
    iAppeals, ARS, and ERE.

•   Gathered and reviewed Agency information and statistics on iAppeals, ARS, ERE,
    and notice processing, as well as disability workloads in Fiscal Years 2008 through
    2010.

Our review was limited in scope to analyzing iAppeals, ARS, ERE, and hearing notice
data, as supplied to us by the Agency. As such, we relied on the representations of
Agency personnel indicating the data reported to us were complete and accurate to the
best of their awareness and ability. Accordingly, our work did not constitute an audit of
such information. We conducted our review from April to June 2011 in Chicago, Illinois,
and Falls Church, Virginia. The principle entity audited was the Office of the Deputy
Commissioner for Disability Adjudication and Review. We conducted our work in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspection and Evaluation.




Electronic Services for Claimant Representatives (A-05-11-01124)
                                                                      Appendix D

Appointed Representative Service Registration
Process
The Appointed Representative Service (ARS) enrollment process includes a number of
steps:

   1. The Office of Disability Adjudication and Review (ODAR) mails the claimant
      representative a notice inviting this individual to a hearing office for in-person
      registration. The invitation includes a Registration for Appointed Representative
      Services and Direct Payment (Form SSA-1699).

   2. The claimant representative completes the SSA-1699 and sends it to ODAR.

   3. Upon receiving the completed SSA-1699, ODAR mails the claimant
      representative Agency-issued user and representative identification numbers.
      The user identification is for accessing the Website, and the representative
      identification number helps SSA identify representatives for official business
      purposes.

   4. Upon receiving these identification numbers, the claimant representative visits a
      hearing office to complete the enrollment process. Claimant representatives are
      asked to bring a copy of the invitation, a text-enabled cellular telephone, and a
      valid government-issued identification.

   5. After ODAR staff verifies the claimant representative’s identification, the claimant
      representative is provided an ARS password. However, in addition to this
      password, the claimant representative will also need to obtain a unique password
      via text mail as part of each entry into ARS. This text password is valid for
      approximately 10 minutes.




Electronic Services for Claimant Representatives (A-05-11-01124)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
